                                         OFFICE OF INSPECTOR GENERAL
                                                                 MEMORANDUM




DATE:          May 19, 2004

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Audit of the E-rate Program at St. Augustine School

The Office of Inspector General (OIG) has completed an audit at St. Augustine School
(St. Augustine), a beneficiary of the Universal Service Fund (USF). A copy of our audit
report no. 02-AUD-02-04-017, entitled “Report on Audit of the E-rate Program at St.
Augustine School” is attached. The objective of this audit was to assess the beneficiary’s
compliance with the rules and requirements of the USF program and to identify program
areas which may need improvement.

We concluded that St. Augustine was not compliant with the requirements of the program
for funding years 1998, 1999 and 2000. The audit resulted in four (4) specific findings
and $21,600 identified as potential fund recoveries. We recommend that the Wireline
Competition Bureau direct the Universal Service Administrative Company (USAC) to
recover $21,600 disbursed on behalf of St. Augustine in funding years 1998 and 1999 (no
recoveries relate to funding year 2000). In addition, we recommend that the Wireline
Competition Bureau take steps to ensure that funding requests are adequately reviewed in
accordance with existing program rules and implementing procedures to make certain
that funding requests associated with these areas of noncompliance with program rules
and regulations are not approved. Further, we recommend that the Wireline Competition
Bureau review those program rules and implementing procedures governing the areas of
noncompliance cited in this report to ensure that those program rules and implementing
procedures are adequate to protect the interests of the fund.

We held an exit conference on March 30, 2004 with the beneficiary’s representatives, and
requested their comments on the results of the audit. They verbally concurred with the
results of the audit, but did not provide a written response.

We provided management with a copy of our draft report on April 29, 2004 and
requested they provide comments on their concurrence with the findings of the audit. In
a response dated May 11, 2004, the Wireline Competition Bureau (WCB) indicated that
Report on Audit of the E-rate Program at St. Augustine School



                                      Table of Contents


                                                                Page


EXECUTIVE SUMMARY                                                 1


BACKGROUND INFORMATION                                            2


AUDIT OBJECTIVES AND SCOPE                                        2


AUDIT FINDINGS AND RECOMMENDATIONS                                4


OTHER MATTER                                                      8


APPENDIX – Management Response
Report on Audit of the E-rate Program at St. Augustine School


EXECUTIVE SUMMARY

On May 7, 1997, the FCC adopted a Universal Service Order implementing the
Telecommunications Act of 1996. Included in this Order was the Schools and Libraries
Support Mechanism of the USF (hereinafter known as the E-rate program) in which all
eligible schools and libraries can receive discounts from the USF on eligible
communication services ranging from 20 to 90 percent, depending on economic need
and location. The OIG has designed a program of audit oversight to provide FCC
management with a reasonable level of assurance that beneficiaries are complying with
program rules and that program controls are adequate to prevent fraud, waste and
abuse.

The OIG has completed an audit of St. Augustine School (St. Augustine). The
objective of this audit was to assess the beneficiary’s compliance with the rules and
regulations of the USF program and to identify areas in which to improve the program.
St. Augustine is a parochial school located in the Bronx borough of New York City. St.
Augustine offers classes for pre-kindergarten to 8th grade. Based on its applications
filed with the Schools and Libraries Division (SLD) of the Universal Service
Administrative Company (USAC), St. Augustine reported that it had 286 students in
Funding Years (FY) 1998-2000 and was approved and received funding at an urban
discount rate of 90% for those years. The period of our audit was for FYs 1998-2000,
covering January 1, 1998 to June 30, 2001.

For the period under audit, St. Augustine had an approved commitment of $252,157 of
which $179,766 (representing 71% of the approved funding commitment) was
approved for installation and maintenance of internal connections. For the period under
audit, SLD disbursed $147,651 of which $114,705 (representing 78% of the
disbursements) was for internal connections.

The audit resulted in four (4) specific findings and $21,600 identified as potential fund
recoveries. We recommend that the Wireline Competition Bureau direct the Universal
Service Administrative Company (USAC) to recover $21,600 disbursed on behalf of St.
Augustine in FYs 1998 and 1999 (no recoveries relate to funds disbursed for FY 2000).
In addition, we recommend that the Wireline Competition Bureau take steps to ensure
that funding requests are adequately reviewed in accordance with existing program
rules and implementing procedures to ensure that funding requests associated with
these areas of noncompliance with program rules and regulations are not approved.
Further, we recommend that the Wireline Competition Bureau review those program
rules and implementing procedures governing the areas of noncompliance cited in this
report to ensure that those program rules and implementing procedures are adequate to
protect the interests of the fund.

We held an exit conference on March 30, 2004 with the beneficiary’s representatives,
and requested their comments on the results of the audit. They verbally concurred with
the results of the audit, but did not provide a written response.

                                           1

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


We provided management with a copy of our draft report on April 29, 2004 and
requested they provide comments on their concurrence with the findings of the audit.
In a response dated May 11, 2004, the Wireline Competition Bureau (WCB) indicated
that they concurred with our three audit recommendations. WCB’s response is
included in its entirety in the Appendix to this report.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General (OIG) at the Federal Communications Commission (FCC) has
oversight responsibilities for the Universal Service Fund (USF) as a federal program of
the FCC. The USF provides affordable access to specified communications services for
schools, libraries, rural health care providers, low-income consumers and companies
serving high-cost areas. On May 7, 1997, the FCC adopted a Universal Service Order
implementing the Telecommunications Act of 1996. Included in this Order was the
Schools and Libraries Funding Mechanism of the USF (hereinafter known as the E-rate
program) in which all eligible schools and libraries can receive discounts from the USF
on eligible communication services ranging from 20 to 90 percent, depending on
economic need and location. The Universal Service Administrative Company (USAC)
is responsible for administering the Fund under the direction of the FCC’s Wireline
Competition Bureau (WCB). The Schools and Libraries Division (SLD) of USAC
administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

St. Augustine is a parochial school located in the Bronx borough of New York City. St.
Augustine offers classes for pre-kindergarten to 8th grade. Based on its applications
filed with the Schools and Libraries Division (SLD) of the Universal Service
Administrative Company (USAC), St. Augustine reported that it had 286 students in
Funding Years (FY) 1998-2000 and was approved and received funding at an urban
discount rate of 90% for those years.

The following table summarizes the funding commitments and disbursements for the
period of our audit.




                                           2

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


                                    Funds                         Funds
Funding Years and Services          Committed        Percent      Disbursed       Percent
FY 1998:
 Internal Connections                 $ 49,484          68%         $48,250          89%
 Internet Access                        17,082          23%           5,694          11%
 Telecommunications                      6,514           9%               0           0%
Subtotal                              $ 73,080         100%         $53,944         100%



FY 1999:
 Internal Connections                 $ 63,827          73%        $      0           0%
 Internet Access                        16,632          19%          16,632         100%
 Telecommunications                      7,333           8%               0           0%
Subtotal                              $ 87,792         100%        $ 16,632         100%
FY 2000:
 Internal Connections                 $ 66,455          73%        $ 66,455          86%
 Internet Access                        10,620          11%          10,620          14%
 Telecommunications                     14,220          16%               0           0%
Subtotal                              $ 91,295         100%        $ 77,075         100%

Totals                                $252,167                     $147,651

AUDIT OBJECTIVES AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. The objective of
this audit was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the program.

The scope of this audit was designed to test beneficiary compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) which provide that:

•   The beneficiary determines its discount percentage by the percentage of their
    student enrollment that is eligible for a free or reduced price lunch under the
    national school lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider.
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.




                                            3

         NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted service
    for which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our audit was for FYs 1998-2000, covering January 1, 1998 to June 30,
2001.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our audit, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited
purposes of our audit would not necessarily disclose all material weaknesses in the
control structure. However, we identified significant management weaknesses as
discussed in the Audit Results section of this report and in Finding Numbers 1 and 4.

AUDIT FINDINGS AND RECOMMENDATIONS

Our audit of the use of E-rate funds at St. Augustine disclosed that the beneficiary was
not compliant with the requirements of the program for funding years 1998 - 2000. The
following findings resulted in noncompliant and/or inappropriate funding
disbursements:

    1. The beneficiary did not pay the entire non-discounted portion of the costs for
       internal connections and internet access.
    2. Internal connections equipment purchased with E-rate funds was missing and
       unauthorized substitutions of equipment were made, resulting in overpayments
       of $4,314.
    3. The service provider billed for T-1 internet access but provided less functional
       integrated services digital network (ISDN) service, resulting in overpayments of
       $17,286.
    4. There was no documentation to support a competitive bidding process.

Additionally, we have reported as an Other Matter that the supporting documentation
for the implementation of and compliance with the E-rate program at St. Augustine was
generally very poor.

AUDIT FINDINGS

Finding 1 of 4 - St. Augustine Failed to Pay the Entire Non-discounted Portion of E-
rate Costs for Internal Connections and Internet Access.




                                            4

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


St. Augustine paid only $14,564 of the $16,406 non-discounted portion for goods and
services received in FYs 1998 - 2000, broken down as follows:

                                           Non-discounted       Amount Pd. by
 Funding Year                                 portion           St. Augustine       Difference
 FY 1998                                      $ 5,994              $ 6,000           $ (6)
 FY 1999                                        1,848                    0            1,848
 FY 2000                                        8,564                8,564                 0
 Total                                        $16,406              $14,564           $1,842

The principal of the school during the period under audit stated that, during a review of
their technology layout performed by the Archdiocese, St. Augustine found out they
had not received all of the equipment and services they had paid for from their service
provider, Connect 2, in FY 1998 and therefore refused to pay their non-discounted
portion for FY 1999. They stated that they informed both SLD and Connect 2 of their
position on this matter.

The FCC, in Universal Service Order CC Docket 96-45 (FCC97-157,) stated that
requiring applicants to pay their share would ensure efficiency and accountability in the
program. Paragraph 493 of the Order states:

    Requiring schools and libraries to pay a share of the cost should encourage them to
    avoid unnecessary and wasteful expenditures because they will be unlikely to
    commit their own funds for purchases they cannot use effectively. A percentage
    discount also encourages schools and libraries to seek the best pre-discount price
    and to make informed, knowledgeable choices among their options, thereby
    building in effective fiscal constraints on the account fund.

St. Augustine’s failure to account and pay for its share of the non-discounted portion of
E-rate services as certified on Form 471 Service Ordered and Certification Form, Block
6, Item 22, is not in compliance with program rules and requirements and would
normally lead to a full recovery of funds disbursed. However, our discussions with
WCB have indicated that factors such as those present at St. Augustine can mitigate this
result. St. Augustine realized that Connect2 was billing the school and USAC for
goods and services not being provided and advised USAC of the situation. In our
opinion, St. Augustine’s actions present mitigating factors that would preclude a
recommendation for full recovery of funding based on this finding.

Finding 2 of 4 - Internal Connections Equipment Purchased with E-Rate Funds was Missing
and Unauthorized Substitutions Of Equipment were Made, Resulting in Overpayments Of
$4,314.

For FY 1998, our on-site inspection of the internal connections equipment and audit of
supporting documentation revealed that some E-rate equipment could not be found and
some of the equipment installed was significantly different from the equipment listed

                                            5

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


on the approved Form 471 (Services Ordered and Certification Form), Item 17
attachment quote/contract. SLD approved, committed and disbursed funds to Connect
2 based on the approved Form 471 funding request numbers. The physical inventory at
St. Augustine revealed that thirteen (13) equipment units, for which SLD disbursed
$4,314 of funding (the pre-discount price of this equipment was $4,793), were missing.
The following table shows the equipment items not found and the associated pre-
discount charge.
Equipment                                                        Units    Pre-Discount Price
Bay Networks Hub, 12 Port                                              14             $7,266
Bay Networks Smart Hub, 24 Port                                       (1)              (999)
Bay Networks Smart Hub, 12 Port 10/100                                  2              2,072
Bay Networks Smart Switch, 24 Port FX option                          (1)            (3,996)
Equipment Cabinet/Shelving                                            (1)            (1,050)
Bay Networks Internet Box w/T-1 (model CQ1001078)                       1              3,995
Bay Networks Internet Box w/ISDN (model CQ1001090)                    (1)            (2,495)
Total                                                                  13             $4,793

Note that this table includes units that were installed by Connect 2, but were not on the
original inventory listing. We were able to ascertain the value of these hubs and
reduced the cost of the missing equipment because it is possible these hubs were
installed in lieu of other equipment.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider has to provide the products and services and
to bill the school or library for the non-discounted portion prior to submitting a FCC
Form 474 to USAC/SLD. Because the amounts invoiced by Connect 2 on the FCC
Form 474 (Service Provider Invoice Form) were submitted as line items in the
aggregate by funding request numbers (FRNs) without any breakdowns by unit/price,
SLD had no knowledge of any product substitutions and relied on the original
service/equipment list attached to Item 17 of the FCC Form 471(Services Ordered and
Certification Form). Consequently, SLD approved the disbursement to the extent the
E-rate funds requested did not exceed the approved committed FRN amounts. SLD has
no record of these substitutions, and therefore, issued no letters authorizing these
substitutions. However, we were unable to determine if the substituted equipment
resulted in a less functional system with the exception of the level of internet service.
This issue is discussed in finding 3 of 4.

Finding 3 of 4 - The service provider billed for T-1 internet access but provided less
functional integrated services digital network (ISDN) service, resulting in
overpayments of $17,286.




                                            6

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


Using Verizon Communications Inc.’s (Verizon d/b/a Bell Atlantic) customer billing
records, it was determined that St. Augustine had ISDN service only from April 1999 to
October 2000. Furthermore, we determined that the equipment provided was not able
to support T-1 service. SLD paid Connect 2 a total of $22,326 for internet access at St.
Augustine for FYs 1998 and 1999.

We have determined that the service provider, Connect 2, was over paid $17,286 for
monthly recurring charges for ISDN service for Internet access billed at rates for a full T-1
service during FY 1998 and FY 1999. The calculation of this amount is too voluminous
for inclusion in this report, but can be made available upon request.

Included in the approved and funded internal connections for St. Augustine was a Bay
Networks Instant Internet Box, model no. CQ1001078 manufactured by Nortel Networks.
This unit supports full T-1 internet service. However, the internet box that was installed at
St. Augustine was a Nortel Networks Bay Networks Instant Internet Box, model no.
CQ1001090. With the assistance of the manufacturer and the Office of Engineering and
Technology (OET) we determined that the capabilities of this unit were limited to ISDN
internet service. This unauthorized service substitution represents a clear degradation of
system functionality, see finding 2 of 4 for more details on the impact of this issue.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider has to provide the products and services and
to bill the school or library for the non-discounted portion prior to submitting a FCC
Form 474 to USAC/SLD. In addition, the FCC Rules in Sec. 54.507 (b) states that a
funding year for purposes of the schools and libraries cap shall be the period July 1
through June 30; and Section 54.507(e) states that if schools and libraries enter into
long term contracts for eligible services, the Administrator (USAC/SLD) shall only
commit funds to cover the pro-rated portion of such a long term contract scheduled to
be delivered during the funding year for which universal service support is sought.
Connect 2 over-billed SLD for the ISDN services based on rates for T-1 services for
Internet access for FY 1998 and FY 1999 and was not in compliance with program
rules and regulations.

Finding 4 of 4 – No Documentation to Support a Competitive Bidding Process.

St. Augustine was not able to provide any evidence of a competitive bidding process.
The school representatives informed us that, during FYs 1998 and 1999, their E-rate
consultant controlled their entire application process and directed their work to Connect
2. They also stated that, to the best of their knowledge, there were no other quotes
obtained and reviewed other than the Connect 2 bid. They changed service providers in
FY 2000 to Elite Systems at the recommendation of a consultant that worked for the
Archdiocese Patrons Program. It was later disclosed that the Archdiocese consultant
was also connected to Elite Systems, by either family or ownership, while working for

                                             7

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


the Archdiocese. We were not able to determine if this connection resulted in unfair or
unethical practices on the part of Elite Systems, but the apparent conflict of interest
leads us to the conclusion that there was no competitive process followed in awarding
the FY 2000 contract to Elite Systems.

Title 47 CFR 54.504, Requests for Service (a) competitive bidding requirement,
provides that all eligible schools, libraries and consortia including those entities shall
participate in a competitive bidding process, pursuant to the requirement established in
this subpart, but this requirement will not preempt state or local competitive bidding
requirements. Section 54.511, Ordering Service, (a) Selecting a provider of eligible
services, provides that in selecting a provider of eligible services, schools, libraries and
consortia including any of those entities shall carefully consider all bids submitted and
may consider relevant factors other than the pre-discounted prices submitted by
providers. St. Augustine was not able to provide documents that would support the
soundness of their management of the E-rate funding or compliance with Title 47 CFR
54.504 and 511.

RECOMMENDATIONS

Recommendation 1 of 3 – We recommend that the Wireline Competition Bureau direct
the Universal Service Administrative Company to recover the amount of $21,600
disbursed for internal connections and internet access on behalf of St. Augustine in
funding years 1998-1999.

Recommendation 2 of 3 - We recommend that the Wireline Competition Bureau take
steps to ensure that funding requests are adequately reviewed in accordance with
existing program rules and implementing procedures to ensure that funding requests
associated with these areas of noncompliance with program rules and regulations are
not approved.

Recommendation 3 of 3 - We recommend that the Wireline Competition Bureau review
those program rules and implementing procedures governing the areas of
noncompliance cited in this report to ensure that those program rules and implementing
procedures are adequate to protect the interests of the fund.

OTHER MATTER

In general, the supporting documentation for all aspects of St. Augustine’s E-rate
participation was weak. School representatives informed us that this was due to their
E-rate consultant controlling the process. They were not given copies of most of the
paperwork associated with their applications and had little knowledge of what was
going on throughout the process. We were able to perform our audit by using other
sources of information, but the general lack of documentation at St. Augustine had a
negative impact on our ability to conduct this audit efficiently.



                                             8

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


Since this is not a rule violation we have not cited this as an audit finding. However,
we do consider it to be a matter of interest and suggest that the WCB consider ways to
ensure that E-rate applicants are required to maintain documentation that supports their
E-rate participation, to include support for the discount calculation, the competitive
process, inventory, and payment for goods and services rendered.




                                           9

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at St. Augustine School


         FEDERAL COMMUNICATIONS
               COMMISSION

               OFFICE OF INSPECTOR GENERAL




               Report on Audit of the E-Rate Program at
                         St. Augustine School

                        Report No. 02-AUD-02-04-017

                     APPENDIX – Management Response




                                         10

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
